HHS/OIG-Audit--"Operation Restore Trust Review of Arlington House Community Mental Health Center, Provider No. 10-4708, Palatka, Florida, (A-04-97-02132)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Review of Arlington House Community Mental Health Center, Provider No. 10-4708, Palatka,
Florida," (A-04-97-02132)
January 30, 1998
Complete
Text of Report is available in PDF format (990 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Arlington House, a Community Mental Health Center located in Palatka, Florida, received reimbursement for partial
hospitalization program services to Medicare beneficiaries. Our audit showed that the center did not meet the certification
requirements established under Section 1916(c)(4) of the Public Health Service Act and 1861 of the Social Security Act.
Further, 9 of the 20 beneficiaries included in our sample were not eligible to receive partial hospitalization services
and $548,652 of the $1,238,872 of the claimed costs represented services which did not meet Medicare coverage and reimbursement
criteria. The center also claimed reimbursement for unreasonable and unallowable administrative costs, including related
party costs that had not been properly disclosed, and was making monthly cash payments to residents who participated in
the program, a potential violation of Medicare bribe and kickback provisions.
Based on the audit, the $1,277,591 paid to the center during 1996 was disallowed, Medicare payments to the center were
suspended with notice and the findings were referred for possible criminal prosecution.